(~~            DEPARTMENT       m' HEALTH & HUMAN SERVICES	
                                                                                       Office of Inspector General
                                                                                       Offices of Audit Services



l~"")(1~	                                                                              Region VII
                                                                                       601 East 12th Street

                  NOV 0 4 2008                                                         Room 284A
                                                                                       Kansas City, Missouri 64106




            Report Number: A-07-08-00258

            Mr. David Breuer

            Senior Vice President of Finance and Chief Financial Officer

            Noridian Mutual Insurance Company
            4510 13 th Avenue S.
            Fargo, North Dakota 58121-0001

            Dear Mr. Breuer:

            Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
            General (OIG), final report entitled "Review of Medicare Contractor's Pension Segmentation
            Requirements at Noridian Mutual Insurance Company for the Period January 1, 1998, to
            January 1, 2006." We will forward a copy oftms report to the HHS action official noted on the
            following page for review and any action deemed necessary.

            The HHS action official will make final determination as to actions taken on all matters reported.
            We request that you respond to this official within 30 days from the date of this letter. Your
            response should present any comments or additional information that you believe may have a
            bearing on the final determination.

            Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.C. § 552, as amended by
            Public Law 104-231, OIG reports generally are made available to the public to the extent the
            information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
            will be posted on the Internet at http://oig.hhs.gov.

            If you have any questions or comments about this report, please do not hesitate to call me at
            (816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21 or
            through e-mail at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-08-00258
            in all correspondence.




                                                         ~
                                                         Pa . . J. Cogley
                                                         Regional Inspector General
                                                          for Audit Services


            Enclosure
Page 2 - Mr. David Breuer


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





     REVIEW OF MEDICARE 

    CONTRACTOR’S PENSION 

 SEGMENTATION REQUIREMENTS 

AT NORIDIAN MUTUAL INSURANCE 

   COMPANY FOR THE PERIOD

     JANUARY 1, 1998, TO

       JANUARY 1, 2006 





                    Daniel R. Levinson

                     Inspector General 


                      November 2008

                      A-07-08-00258

                    Office of Inspector General
                                        http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY


BACKGROUND


During our audit period, Noridian Mutual Insurance Company (Noridian) administered Medicare
Part A and Part B operations under cost reimbursement contracts with the Centers for Medicare
& Medicaid Services (CMS).

Pension Plan

Noridian sponsors a defined benefitpension plan, which is a deferred compensation plan in
which an employer makes actuarially determined contributions to fund an employee's retirement
benefit as defined by the plan's terms.

Since its inception, Medicare has paid a portion of contractors' contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Medicare contracts, the Federal Acquisition Regulation, and Cost Accounting Standards (CAS).

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the segment. Additionally, the
contracts require Medicare segment assets to be updated for each year after the initial allocation
in accordance with CAS 412 and 413.

We previously reviewed Noridian's Medicare pension segmentation requirements
(A-07-99-02560) and recommended that Noridian identify $2,766,742 of Medicare segment
assets as of January 1, 1998.

OBJECTIVE

Our objective was to determine whether Noridian complied with Federal requirements and the
Medicare contracts' pension segmentation requirements when:

   •     implementing the prior audit recommendation, and

   •     updating the Medicare segment's assets from January 1, 1998, to January 1, 2006.

SUMMARY OF FINDINGS

Noridian properly implemented the prior audit recommendation; however, it did not always
comply with Federal requirements and the Medicare contracts' pension segmentation
requirements while updating the Medicare segment assets from January 1, 1998, to January 1,
2006. As a result, Noridian understated the Medicare segment assets by $158,261.




                                                 1
RECOMMENDATIONS

We recommend that Noridian:

   •    increase Medicare segment assets by $158,261 as of January 1, 2006, and

   •    implement controls to ensure that the Medicare segment's assets are updated in
        accordance with the Medicare contracts.

AUDITEE COMMENTS

In written comments on our draft report, Noridian concurred with our recommendations.
Noridian stated that it will properly identify Medicare segment individuals and update the
Medicare segment's assets.

Noridian's comments are included in their entirety as Appendix B.




                                                11
                             TABLE OF CONTENTS




INTRODUCTION                                                           1


    BACKGROUND                                             '"         1

        Pension Plan                                                  1

        Federal Requirements                                          1

        Pension Segmentation                                          1


    OBJECTIVE, SCOPE, AND METHODOLOGy                                 2

         Objective                                                    2

         Scope                                                        2

         Methodology                                                  2


FINDINGS AND RECOMMENDATIONS                                          3


    PRIOR AUDIT RECOMMENDATION                                  :     3


    UPDATE OF MEDICARE SEGMENT ASSETS                                 .4

        Federal Requirements                                           4

        Contributions and Transferred Prepayment Credits Overstated   .4

        Benefit Payments Understated                                   5

        Net Transfers Understated                                      5

        Earnings, Net Expenses Overstated                              6


    RECOMMENDATIONS                                                   6


    AUDITEE COMMENTS                                                  6


APPENDIXES

    A - NORIDIAN MUTUAL INSURANCE COMPANY MARKET VALUE OF

        PENSION ASSETS FOR THE PERIOD JANUARY 1, 1998, TO

        JANUARY 1, 2006


    B - AUDITEE COMMENTS




                                        111
               Glossary of Abbreviations and Acronyms

CAS        Cost Accounting Standards
CMS        Centers for Medicare & Medicaid Services
FAR        Federal Acquisition Regulation
Noridian   Noridian Mutual Insurance Company
WAY        weighted average value




                                  tv
                                       INTRODUCTION


BACKGROUND

During our audit period, Noridian Mutual Insurance Company (Noridian) administered Medicare .
Part A and Part B operations under cost reimbursement contracts with the Centers for Medicare &
Medicaid Services (CMS).

Pension Plan

Noridian sponsors a defined benefit pension plan, which is a deferred compensation plan in which
an employer makes actuarially determined contributions to fund an employee's benefit as defined
by the plan's terms. Once an employee satisfies the plan's age and service requirements and
retires, he or she is eligible to receive payment(s) from the plan. The plan accumulates assets
from employer contributions and net investment earnings to fund the actuarial liability for both
earned and projected future benefits. The amount of required annual employer contributions may
decrease or increase each year based on the annual determination of gain or loss (when actual
results differ from what is expected).

Since its inception, Medicare has paid a portion of contractors' contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Medicare contracts, the Federal Acquisition Regulation (FAR), and Cost Accounting Standards
(CAS).

Federal Requirements

CAS 412 regulates the determination and measurement of pension cost components. It also
regulates the assignment of pension costs to appropriate accounting periods.

CAS 413 regulates the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

Pension Segmentation

CMS incorporated CAS 412 and 413 into the Medicare contracts effective October 1, 1980.
Beginning with fiscal year 1988, CMS incorporated segmentation requirements into Medicare
contracts. The Medicare contracts identify the criteria used to identify the Medicare segment and
specify the methodology for the identification and initial allocation of pension assets to the
segment. For each year after the initial allocation, the contracts require Medicare segment assets
to be updated in accordance with CAS 412 and 413. In c1~iming costs, contractors must follow
cost reimbursement principles contained in the FAR, CAS, and the Medicare contracts.




                                                 1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Noridian complied with Federal requirements and the
Medicare contracts' pension segmentation requirements when:

   •	    implementing the prior audit recommendation, and

   •	    updating the Medicare segment's assets from January 1, 1998, to January 1, 2006.

Scope

We reviewed Noridian's implementation of the prior audit recommendation identification of its
Medicare segment; and update of Medicare segment's assets from January 1, 1998, to January 1,
2006.

Achieving our objectives did not require us to review Noridian's overall internal control structure.
However, we reviewed controls relating to the implementation of the prior audit recommendation,
identification of the Medicare segment, and the update of the Medicare segment's assets.

We performed fieldwork at Noridian in Fargo, North Dakota, during August 2007.

Methodology

To accomplish our objective:

   •	    We reviewed the applicable portions of the FAR, CAS, and the Medicare contracts.

   •	   We reviewed the information provided by Noridian's actuarial consulting firm, which
        included the pension plan's assets, liabilities, normal costs, contributions, benefit
        payments, investment earnings, and administrative expenses. We used this information
        to calculate the Medicare segment assets.

   •	   We obtained and reviewed the pension plan documents, actuarial valuation reports, and
        Department of Labor/Internal Revenue Service Form 5500s which provide information
        used in calculating the Medicare segment assets.

   •	    We reviewed the findings and recommendation contained in our prior audit report
         (A-07-99-02560) ofNoridian's Medicare pension segmentation requirements.

   •	   We interviewed Noridian staff responsible for identifying the Medicare segment to
        determine whether the segment was properly identified in accordance with the Medicare
        contracts.

   •	   We reviewed Noridian's accounting records to verify the segment identification and
        benefit payments made to the Medicare segment.

                                                 2
   •	   We provided the CMS Office of the Actuary with the actuarial information necessary for
        it to calculate the Medicare segment assets as of January 1, 2006.

   •	   We reviewed the CMS actuaries' methodology and calculations.

We performed this review in conjunction with our audit ofNoridian's pension costs claimed for
Medicare reimbursement (A-07-08-00259) and used the information obtained during that audit in
this review.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Noridian properlyimplemented the prior audit recommendation; however, it did not always
comply with Federal requirements and the Medicare contracts' pension segmentation
requirements while updating the Medicare segment assets from January 1, 1998, to
January 1, 2006. As a result, Noridian understated the Medicare segment assets by $158,261.

Appendix A presents details on the Medicare segment's pension assets from January 1, 1998, to
January 1, 2006, as determined during our audit. Table 1 summarizes the audit adjustments
required to update Medicare segment pension assets in accordance with Federal requirements.

                      Table 1: Summary of Audit Adjustments
                                                PerOIG    Per Noridian               Difference
Prior Audit Recommendation                     $2,766,742   $2,766,742                       $0

Update of Medicare Segment Assets
  Contributions and Transferred Prepayment Credits      15,676,384     15,776,348       (99,964)
  Benefit payments                                      (5,921,024)    (5,880,859)      (40,165)
  Transfers                                             (1,758,811)    (2,285,675)      526,864
  Earnings, net expenses                                 2,889,412      3,117,886      (228,474)
Understatement of Medicare segment assets                                              $158,261

PRIOR AUDIT RECOMMENDATION

Noridian properly implemented the recommendation from the prior segmentation report
(A-07-99-02560), which recommended that Noridian identify $2,766,742 of Medicare segment
pension assets as of January 1, 1998.




                                               3

UPDATE OF MEDICARE SEGMENT ASSETS

Federal Requirements

The Medicare contract states that "... the pension assets allocated to each Medicare Segment
shall be adjusted in accordance with CAS 413.50(c)(7)." CAS 413.50(c)(7) requires that the asset
base be adjusted by contributions, permitted unfunded accruals, income, benefit payments, and
expenses. For plan years beginning after March 30, 1995, the CAS requires investment income
and expenses to be allocated among segments based on the ratio of the segment's weighted
average value (WAV) of assets to total company WAV of assets.

In addition, CAS 413.50(c)(8) requires an adjustment to be made for transfers (participants who
enter or leave the segment) ifthe transfers materially affect the segment's ratio ofpension plan
assets to actuarial accrued liabilities. For plan years beginning after March 30, 1995, the CAS
requires that the amount of assets transferred equal the actuarial accrued liabilities as determined
using the accrued benefit cost method.

Contributions and Transferred Prepayment Credits Overstated

Noridian overstated contributions and transferred prepayment credits for the Medicare segment by
$99,964. Noridian's update methodology did not equitably assign pension contributions and
transferred prepayment credits to the Medicare segment. Primarily, this was due to Noridian's
misidentification of the Medicare segment, which led to differences in assignable pension costs.
As a result, Noridian overstated the Medicare segment assets by $99,964.

The audited contributions and prepayment credits are based on the assignable pension costs. In
compliance with CAS 412.50(a)(4) and FAR 31.201-1(a), we applied prepayment credits first to
current-year assignable pension costs because the credits were available at the beginning of the
year and then updated any remaining credits with interest to the next measurement (valuation)
date. We then allocated contributions as needed to assigned pension costs as of the date of
deposit.

Table 2 compares Noridian's and our calculations of contributions and transferred prepayment
credits for the Medicare segment.

                               Table 2: Comparison of Contributions
                       Year           Per OIG     Per Noridian Difference
                       1998              $703,863     $703,863            $0
                       1999               860,687      898,122       (37,435)
                       2000             1,233,894    1,255,324       (21,430)
                       2001             1,533,385    1,560,881       (27,496)
                       2002             1,909,729    1,937,089       (27,360)
                       2003             3,014,266    3,006,442         7,824
                       2004             3,026,983    3,012,358        14,625
                       2005             3,393,577    3,402,269        (8,692)
                       Total         $15,676,384 $15,776,348        ($99,964)

                                                  4

Benefit Payments Understated

Noridian understated benefit payments by $40,165 for the Medicare segment because it did not
include all lump sum and annuity payments made to Medicare segment participants. This
understatement of benefit payments resulted in an overstatement of the Medicare segment assets.

Table 3 compares Noridian's and our calculations of benefit payments for the Medicare segment.

                          Table 3: Comparison of Benefit Payments
                    Year           Per OIG     Per Noridian    Difference
                    1998          ($1,138,382)   ($1,178,600)      $40,218
                    1999             (128,832)       (83,502)       (45,330)
                    2000             (137,702)      (118,119)       (19,583)
                    2001              (57,116)       (42,684)       (14,432)
                    2002           (1,548,325)    (1,548,325)
                    2003           (1,519,399)    (1,518,361)        (1,038)   °
                    2004           (1,012,332)    (1,012,332)
                    2005             (378,936)      (378,936)                  °
                    Total         ($5,921,024)  ($5,880,859)      ($40,165)    °
Net Transfers Understated

Noridian understated the net participant transfer adjustment in its update of Medicare segment
assets by $526,864. The understatement occurred primarily because Noridian misidentified the
Medicare segment, which resulted in-among other things-the incorrect identification of
participants who transferred in and out of the segment. Transfers for the audited update were
adjusted based on our revisions to the Medicare segment. This understatement of the net transfer
adjustment resulted in an understatement of the Medicare segment assets.

Table 4 compares Noridian's and our asset adjustments associated with Medicare segment
participant transfers.

                           Table 4: Comparison Transfer Adjustments
                   Year           Per OIG       Per Noridian     Difference
                   1998           ($1,416,169)      ($1,065,828)    ($350,341)
                   1999                 7,916           (35,341)       43,257
                   2000                68,487          (374,382)      442,869
                   2001               (37,826)         (117,439)       79,613
                   2002              (350,298)         (449,581)       99,283
                   2003              (156,222)         (137,599)      (18,623)
                   2004               (51,912)         (155,970)      104,058
                   2005               177,213            50,465       126,748
                   Total          ($1,758,811)      ($2,285,675)     $526,864



                                                5

Earnings, Net Expenses Overstated

Noridian overstated investment earnings, less administrative expenses, by $228,474 for the
Medicare segment primarily because it used incorrect contribution and transferred prepayment
credit amounts, benefit payment amounts, and transfer adjustment amounts (all discussed above)
to develop the Medicare asset base. In our audited update, we allocated earnings and expenses,
based on the applicable CAS requirements. The overstatement in earnings (less administrative
expenses) led to a $228,474 overstatement in Medicare segment assets.

RECOMMENDATIONS

We recommend that Noridian:

   •	    increase Medicare segment assets by $158,261 as of January 1, 2006, and

   •	    implement controls to ensure that the Medicare segment's assets are updated in

         accordance with the Medicare contracts.


AUDITEE COMMENTS

In written comments on our draft report, Noridian concurred with our recommendations.
Noridian stated that it will properly identify Medicare segment individuals and update the
Medicare segment's assets.

Noridian's comments are included in their entirety as Appendix B.




                                                 6

APPENDIXES

                          NORIDIAN MUTUAL INSURANCE COMPANY                      APPENDIX A
                            MARKET VALUE OF PENSION ASSETS                         Page 1 of3
                                    FOR THE PERIOD
                            JANUARY 1, 1998, TO JANUARY 1, 2006
           Description                Total Company      Other Segment      Medicare Segment    I
IAssets January 1, 1998          1/      $40,527,946        $37,761,204           $2,766,742    I
Transferred Prepayment Credits   21                 0          (703,863)             703,863
Contributions                    31         4,416,000         4,416,000                    0
Earnings                         41         6,279,699         5,820,823              458,876
Benefit Payments                 51        (1,843,975)         (705,593)          (1,138,382)
Expenses                         61          (213,182)         (197,604)             (15,578)
Transfers                        71                 0         1,416,169           (1,416,169)

IAssets January 1, 1999                   49,166,488         47,807,136            1,359,352

Transferred Prepayment Credits                      0          (860,687)             860,687
Contributions                               3,728,000         3,728,000                    0
Earnings                                    6,374,488         6,058,383              316,105
Benefit Payments                          (11,421,839)      (11,293,007)            (128,832)
Expenses                                     (189,207)         (179,824)              (9,383)
Transfers                                           0            (7,916)               7,916

IAssets January 1, 2000                   47,657,930         45,252,085            2,405,845

Transferred Prepayment Credits                      0         (1,233,894)          1,233,894
Contributions                               2,440,000          2,440,000                   0
Earnings                                   (2,458,153)        (2,265,168)           (192,985)
Benefit Payments                           (4,377,285)        (4,239,583)           (137,702)
Expenses                                      269,339            248,194              21,145
Transfers                                           0            (68,487)             68,487

IAssets January 1,2001                    43,531,831         40,133,147            3,398,684

Transferred Prepayment Credits                     0         (1,533,385)           1,533,385
Contributions                             10,307,301         10,307,301                    0
Earnings                                  (2,116,846)        (1,870,942)            (245,904)
Benefit Payments                          (3,252,738)        (3,195,622)             (57,116)
Expenses                                    (236,106)          (208,679)             (27,427)
Transfers                                          0             37,826              (37,826)

IAssets January 1,2002                   $48,233,442        $43,669,646           $4,563,796
                          NORIDIAN MUTUAL INSURANCE COMPANY                      APPENDIX A
                            MARKET VALUE OF PENSION ASSETS                         Page 2 of3
                                    FOR THE PERIOD
                            JANUARY 1, 1998, TO JANUARY 1, 2006
           Description               Total Company       Other Segment      Medicare Segment    I
IAssets January 1, 2002                 $48,233,442         $43,669,646           $4,563,796 I

Transferred Prepayment Credits                                (1,909,729)
                                          9,100,000°
                                                                                   1,909,729
Contributions                                                  9,100,000
Earnings                                  (3,740,609)         (3,249,461)                  °
                                                                                    (491,148)
Benefit Payments                          (9,653,609)         (8,105,284)         (1,548,325)
Expenses                                    (247,063)           (214,623)            (32,440)
                                                                 350,298
Transfers
                                                     °                              (350,298)

IAssets January 1, 2003                  43,692,161          39,640,847            4,051,314

                                                              (3,014,266)
                                         23,900,000°
Transferred Prepayment Credits                                                     3,014,266
                                                              23,900,000
Contributions
Earnings                                   8,097,350           6,803,528                   °
                                                                                   1,293,822
Benefit Payments                         (12,034,176)        (10,514,777)         (1,519,399)
Expenses                                    (221,031)           (185,714)            (35,317)
                                                                 156,222            (156,222)
Transfers
                                                     °
IAssets January 1, 2004                  63,434,304          56,785,840            6,648,464

                                                             (3,026,983)           3,026,983
Transferred Prepayment Credits
                                                     °
Contributions
Earnings
                                         13,000,000
                                          6,089,537
                                                             13,000,000
                                                              5,157,922                    °
                                                                                     931,615
Benefit Payments                         (6,997,890)         (5,985,558)          (1,012,332)
Expenses                                   (271,013)           (229,552)             (41,461)
                                                                 51,912              (51,912)
Transfers
                                                     °
IAssets January 1,2005                   75,254,938          65,753,581            9,501,357

                                                             (3,393,577)           3,393,577
Transferred Prepayment Credits
                                                  °
Contributions
Earnings
                                         18,000,000
                                           5,740,726
                                                             18,000,000
                                                              4,728,293                    °
                                                                                   1,012,433
Benefit Payments                          (6,478,041)        (6,099,105)            (378,936)
Expenses                                    (300,187)          (247,246)             (52,941)
                                                               (177,213)             177,213
Transfers
                                                     °
IAssets January 1, 2006                 $92,217,436         $78,564,733          $13,652,703
                               NORIDIAN MUTUAL INSURANCE COMPANY                               APPENDIX A
                                 MARKET VALUE OF PENSION ASSETS                                  Page 3 of3
                                         FOR THE PERIOD
                                 JANUARY 1, 1998, TO JANUARY 1, 2006
                 Description                   Total Company         Other Segment       Medicare Segment      I
      Assets January 1, 2006                        $92,217,436          $78,564,733           $13,652,703
      Per Noridian                       8/         $92,217,436          $78,722,994           $13,494,442
      Asset Variance                     9/                  $0             $158,261             ($158,261)

FOOTNOTES

1/	   We determined the Medicare segment assets as of January 1, 1998, based upon our prior
      segmentation audit of Noridian (A-07-99-02560). The amounts shown for the Other segment
      represent the difference between the Total Company and the Medicare segment. All pension assets
      are shown at market value.

2/	   Prepayment credits represent funds available to satisfy future funding requirements, and are applied
      to future· funding requirements before current year contributions in order to reduce interest costs to
      the Federal Government. Prepayment credits are transferred to the Medicare segment as needed to
      cover funding requirements.

3/	   We obtained Total Company contribution amounts from the actuarial valuation reports and
      Department of Labor/Internal Revenue Service Form 5500s. We allocated Total Company
      contributions to the Medicare segment based on the ratio of the Medicare segment funding target
      divided by the Total Company funding target. Contributions in excess of the funding targets were
      treated as prepayment credits and accounted for in the Other segment until needed to fund pension
      costs in the future.

4/    We obtained investment earnings from actuarial valuation reports. We allocated investment
      earnings based on the ratio of the segment's weighted average value (WAV) of assets to total
      company WAV of assets as required by the Cost Accounting Standards (CAS).

5/    We calculated the Medicare segment's benefit payments based on actual payments to Medicare
      retirees. We obtained information on the benefit payments from documents prepared by Noridian's
      actuarial consulting firm. We used actual benefit payments for Medicare segment retirees.

6/    We allocated administrative expenses to the Medicare segment in proportion to investment earnings.

7/    We identified participant transfers between segments by comparing valuation data files provided by
      Noridian. Asset transfers were equal to the actuarial liability determined under the accrued benefit
      cost method in accordance with the CAS.

8/    We obtained total asset amounts as ofJanuary 1,2006, from documents prepared by Noridian's
      actuarial consulting firm.

9/    The asset variance represents the difference between our calculation of Medicare segment assets and
      Noridian's market value of assets.
                                                                                                 APPENDIXB
                                                                                                   Page 1 of2




                                             ~.

                                            NORIDIAN"
                                            MuttlsililstirenceCompeny


        O¢tob~r   17,2008



       Mr..Patrick J. Cogley
       Regional Inspector General for AudhServices
       Dep:u:tmentof Health &Human Services
       601 Easll2'h Street
       Room 284A
       Kansas City,MO 64106

       RE:Repol't Number A-07-d8-d0258 and A-Q7-08c00259

       Dear Mt; Cogley:

       We have reviewed your draft reports entit]ed"Revi~w ofM~clicm:eCoUtractOr'S Pension
       8egmeutatiollRequiremeDtsat Noridiim Ml.ltu1illfiSurance CompanY for the Period
       Janual)' L 1998; to Jimuat'y 1,2006" anel "Review of Pension Costs Claimed for
       Medicare ReimbursemenlblyNori~ian Ml.lt\.JalJ,nsurance Company for Fiscal Years 1999
       Through 200$" andoffer.thefon9Wingc9lJlffi~nts:

       Recotnmehd1\tions ~ "Review.oiPension Segmentation Requirements"

                   •   rncr~aseMedicate segtnent assets by$158,261 as of January 1, 2006
                            o	 We. concur with this recommendation.

                   •	 Implem~ntcorltrols tO~rlsure thatthe.Medicaresegment's as.sets ar~
                      updated in accordance with the Me.dicare contracts.
                          b	 We concur with this recommendation andwillerlsure that
                             Ij)dividuals. ar~properly identified to the M~dicar~segr11ent and
                             that th~ Medicare segment' sassets ar~ updat~d.

       R~comm~ndations-       "Review ofI'ension Costs Claimed"

                   •	 Revjseth~ Fin'!] Adn1itiistratiye Cost ProjJo~als to claim alldwable GAS
                      p~nsion .costsdf$38,645 for FYs' 1999 thrdugh 2005 and claim future
                      pension costs in accol'danc~. with Federal requir~mentsand the Medicate
                      corttracts.
                          ·0	 W~.Cdnc                         ndation and will revise the Fihal
                              AdmiriistJ·,                sals.




2930503e:                       451Q13t11 AvenueS6uth" Fargo; North b.ak61a.58121	                I;J.Q/'.
                                              APPENDIXB
                                                Page 2 of2




                                           Page 2




David Breuer
8enior'V'iCe'PresiderttofFinartce andCFQ
